                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report

Subject:


  AUDIT OF THE INFORMATION TECHNOLOGY
          SECURITY CONTROLS OF THE
  U.S. OFFICE OF PERSONNEL MANAGEMENT’S
          SERENA BUSINESS MANAGER
                    FY 2013
                                           Report No. 4A-CI-00-13-023


                                           Date:                 July 19, 2013




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report

                               U.S. OFFICE OF PERSONNEL MANAGEMENT
                                -------------------------------------------------------------

               AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
            CONTROLS OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT’S
                          SERENA BUSINESS MANAGER
                                         FY 2013
                              --------------------------------
                                WASHINGTON, D.C.




                                                Report No. 4A-CI-00-13-023


                                                 Date:                 July 19, 2013




                                                                                     Michael R. Esser
                                                                                     Assistant Inspector General
                                                                                       for Audit



                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                   Executive Summary

                      U.S. OFFICE OF PERSONNEL MANAGEMENT
                       -------------------------------------------------------------

            AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
         CONTROLS OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT’S
                       SERENA BUSINESS MANAGER
                                      FY 2013
                           --------------------------------
                             WASHINGTON, D.C.




                                    Report No. 4A-CI-00-13-023


                                    Date:              July 19, 2013



This final audit report discusses the results of the Office of the Inspector General’s (OIG) review
of the information technology security controls of the U.S. Office of Personnel Management’s
(OPM) Serena Business Manager (SBM). Our conclusions are detailed in the “Results” section
of this report.

SBM was originally used for software change management control, issue, and defect tracking.
In 2004, the Office of the Chief Information Officer (OCIO) recognized an opportunity to use the
tool for developing administrative support applications for OPM program offices.

Currently SBM is used by the OCIO to design, develop, test and implement applications used by
multiple organizational units within OPM. SBM hosts minor applications that are developed and
tested using the SBM platform.




                                                   i
We have ongoing concerns about the security of SBM. The system has been hacked twice in the
last year, with both breaches leading to the loss of sensitive data. We issued a flash audit alert to
the OPM Director on April 8, 2013 (See Appendix II), recommending that all public-facing
elements of SBM be taken offline until the system could be adequately secured.

In response to our alert, the Director instructed the OCIO to shut down the public-facing portion
of the system. The OCIO also developed a corrective action plan to address the SBM security
flaws (see Appendix III.) We agree with the corrective action plan and will continue to monitor
this issue.

In addition, we documented the following opportunities for improvement:
•   SBM does not have a standardized process in place to routinely audit user accounts for
    appropriate access across all applications within the system; and
•   SBM currently does not utilize access agreement forms for the information system.

As part of this audit, we determined that the following elements of the SBM security program
appear to be in full compliance with the Federal Information Security Management Act:
• A Security Assessment and Authorization of SBM was completed in December 2012;
• SBM is appropriately assigned a security categorization of “moderate”;
• The SBM System Security Plan contains elements required by NIST SP 800-18 Revision 1;
• A Security Assessment Plan has been documented and tested in FY 2013 with the results
  incorporated into the Security Assessment Report;
• The OCIO conducted a self-assessment of the security controls of SBM in FY 2012;
• A contingency plan was reviewed, updated and tested for the system in FY 2013;
• A Privacy Impact Assessment was completed for SBM in November 2012;
• The SBM Plan of Action and Milestones (POA&M) follows the format of the OPM POA&M
  guide, and has been routinely submitted to the OCIO for evaluation; and
• A risk assessment was conducted for SBM in FY 2013 that addresses all the required elements
  outlined in relevant guidance.




                                                  ii
                                                                 Contents
                                                                                                                                               Page

Executive Summary ......................................................................................................................... i
Introduction ......................................................................................................................................1
Background ......................................................................................................................................1
Objectives ........................................................................................................................................1
Scope and Methodology ..................................................................................................................2
Compliance with Laws and Regulations..........................................................................................3
Results ..............................................................................................................................................4
     I. Security Assessment and Authorization ................................................................................4
    II. FIPS 199 Analysis ..................................................................................................................4
   III. System Security Plan .............................................................................................................4
  IV. Security Assessment Plan and Report ....................................................................................5
   V. Security Control Self-Assessment ..........................................................................................5
  VI. Contingency Planning and Contingency Plan Testing ...........................................................6
 VII. Privacy Impact Assessment ....................................................................................................6
VIII. Plan of Action and Milestones Process ..................................................................................6
  IX. NIST SP 800-53 Evaluation ...................................................................................................7
   X. Security Breaches Involving Serena.....................................................................................10
Major Contributors to this Report ..................................................................................................11


    Appendix I:            OCIO’s April 9, 2013 response to the draft audit report, issued March 1, 2013
    Appendix II: OIG’s April 8, 2013 Flash Audit Alert – Information System Security at the
                 U.S. Office of Personnel Management
    Appendix III: OCIO’s April 10, 2013 Response to the Flash Audit Alert issued April 8, 2013
                                        Introduction
On December 17, 2002, President Bush signed into law the E-Government Act (P.L. 107-347),
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (IG) evaluations, (3) agency
reporting to the Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we evaluated the information technology
(IT) security controls related to the Office of Personnel Management’s (OPM) Serena Business
Manager (SBM).

                                        Background
SBM is one of OPM’s critical IT systems. As such, FISMA requires that the Office of the
Inspector General (OIG) perform an audit of IT security controls of this system, as well as all of
the agency’s systems on a rotating basis. OPM’s Office of the Chief Information Officer (OCIO)
has ownership and managerial responsibility of the SBM system and is also responsible for IT
development, support, and maintenance of the system. SBM resides on the OPM Local Area
network/Wide Area Network (LAN/WAN) in the Development/Test and Production (DTP)
environment.

Serena Business Manager (formerly called TeamTrack) was originally purchased for software
change management control, and issue/defect tracking. After the acquisition of TeamTrack, it
was realized that the software provided the OCIO the capability to develop administrative
applications for a fraction of the cost of developing custom applications.

In 2004, the OCIO recognized an opportunity to use the tool for developing administrative
support applications for other OPM program offices. There were many existing administrative
support tracking systems throughout OPM that were originally built using various technologies
such as MS Access, Powerbuilder, and Coldfusion. Reengineering these systems as SBM
applications provided the OCIO an opportunity to build and maintain these applications in one
environment where applications shared one browser interface, common software components,
and one single place to manage user access and application security.

                                         Objectives
Our objective was to perform an evaluation of the security controls for SBM to ensure that OCIO
officials have implemented IT security policies and procedures in accordance with standards
established by FISMA, the National Institute of Standards and Technology (NIST), and OPM
policy.

OPM’s IT security policies require managers of all major information systems to complete a
series of steps to (1) certify that their system’s information is adequately protected and (2)
authorize the system for operations. The audit objective was accomplished by reviewing the
degree to which a variety of security program elements have been implemented for SBM,
including:



                                                1
•   Security Assessment and Authorization;
•   FIPS 199 Analysis;
•   System Security Plan;
•   Security Assessment Plan and Report;
•   Security Control Self-Assessment;
•   Contingency Planning and Contingency Plan Testing;
•   Privacy Impact Assessment;
•   Plan of Action and Milestones Process; and
•   NIST Special Publication (SP) 800-53 Security Controls.

                                Scope and Methodology
This performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of OCIO personnel
responsible for SBM, including IT security controls in place as of February 2012.

We considered the SBM internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives of OPM’s OCIO and other
individuals with SBM security responsibilities. We reviewed relevant OPM IT policies and
procedures, federal laws, OMB policies and guidance, and NIST guidance. As appropriate, we
conducted compliance tests to determine the extent to which established controls and procedures
are functioning as required.

Details of the security controls protecting the confidentiality, integrity, and availability of SBM
are located in the “Results” section of this report. Since our audit would not necessarily disclose
all significant matters in the internal control structure, we do not express an opinion on the SBM
system of internal controls taken as a whole.

The criteria used in conducting this audit include:
•   OPM Information Security and Privacy Policy Handbook;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   NIST SP 800-12, An Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems;


                                                 2
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems and Organizations;
•   NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories;
•   Federal Information Processing Standards Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems; and
•   Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from November 2012
through February 2013 in OPM’s Washington, D.C. office.

                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether OCIO management of SBM is
consistent with applicable standards. Nothing came to the OIG’s attention during this review to
indicate that the OCIO is in violation of relevant laws and regulations.




                                               3
                                           Results
 I. Security Assessment and Authorization
    A Security Assessment and Authorization (SA&A) of SBM was completed in December
    2012.

    OPM’s Chief Information Officer reviewed the SBM SA&A package and signed the
    system’s authorization memorandum on December 19, 2012.

    NIST SP 800-37 Revision 1 “Guide for Applying Management Framework to Federal
    Information Systems,” provides guidance to federal agencies in meeting security
    accreditation requirements. The SBM SA&A appears to have been conducted in
    compliance with NIST requirements.

II. FIPS 199 Analysis
    Federal Information Processing Standards (FIPS) Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems, requires federal agencies
    to categorize all federal information and information systems in order to provide
    appropriate levels of information security according to a range of risk levels.

    NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories, provides an overview of the security objectives and
    impact levels identified in FIPS Publication 199.

    The SBM FIPS 199 Security Categorization Template analyzes information processed by
    the system and its corresponding potential impacts on confidentiality, integrity, and
    availability. SBM is categorized with a moderate impact level for confidentiality,
    moderate for integrity, moderate for availability, and an overall categorization of
    moderate.

    The security categorization of SBM appears to be consistent with FIPS 199 and NIST SP
    800-60 requirements, and the OIG agrees with the categorization of moderate.

III. System Security Plan
    Federal agencies must implement on each information system the security controls
    outlined in NIST SP 800-53 Revision 3, Recommended Security Controls for Federal
    Information Systems and Organizations. NIST SP 800-18 Revision 1, Guide for
    Developing Security Plans for Federal Information Systems, requires that these controls
    be documented in a System Security Plan (SSP) for each system, and provides guidance
    for doing so.

    The SSP for SBM was created using the template outlined in NIST SP 800-18. The
    template requires that the following elements be documented within the SSP:
    •   System Name and Identifier;
    •   System Categorization;


                                               4
    •   System Owner;
    •   Authorizing Official;
    •   Other Designated Contacts;
    •   Assignment of Security Responsibility;
    •   System Operational Status;
    •   Information System Type;
    •   General Description/Purpose;
    •   System Environment;
    •   System Interconnection/Information Sharing;
    •   Laws, Regulations, and Policies Affecting the System;
    •   Security Control Selection;
    •   Minimum Security Controls; and
    •   Completion and Approval Dates.

    The SBM SSP adequately addresses each of the elements required by NIST.

IV. Security Assessment Plan and Report
    A Security Assessment Plan (SAP) and Security Assessment Report (SAR) were
    completed for SBM in November and December 2012 respectively as a part of the
    system’s SA&A process. We reviewed the document to verify a risk assessment was
    conducted in accordance with NIST SP 800-30, Risk Management Guide for Information
    Technology Systems. We also verified that appropriate management, operational, and
    technical controls were tested for a system with a “moderate” security categorization
    according to NIST SP 800-53 Revision 3, Recommended Security Controls for Federal
    Information Systems and Organizations.

    The SAP assessment results table labeled each security control as fully satisfied, partially
    satisfied, not satisfied or not applicable. The SAR identified 23 total control weaknesses.
    The SBM Plan of Action and Milestones (POA&M) describes the corrective measures
    that have been implemented or are planned to address these weaknesses.

    Nothing came to our attention to indicate that the security controls of SBM have not been
    adequately tested.

V. Security Control Self-Assessment
    FISMA requires that the IT security controls of each major application owned by a
    federal agency be tested on an annual basis. In the years that an independent security
    controls test is not conducted on the system, the system’s owner must conduct an internal
    self-assessment of security controls.

    A partial-scope vulnerability assessment was conducted on the SBM system in August
    2012. The assessment included a review of a subset of management, operational, and
    technical security controls outlined in NIST SP 800-53 Revision 3. Nothing came to our
    attention to indicate that the security controls of SBM have not been adequately tested by
    the OCIO.



                                                 5
 VI. Contingency Planning and Contingency Plan Testing
      NIST SP 800-34, Contingency Planning Guide for IT Systems, states that effective
      contingency planning, execution, and testing are essential to mitigate the risk of system
      and service unavailability. OPM’s security policies require all major applications to have
      viable and logical disaster recovery and contingency plans, and that these plans be
      annually reviewed, tested, and updated.

      Contingency Plan
      The SBM contingency plan documents the functions, operations, and resources necessary
      to restore and resume SBM operations when unexpected events or disasters occur. The
      SBM contingency plan closely follows the format suggested by NIST SP 800-34 and
      contains a majority of the suggested elements.

      Contingency Plan Test
      NIST SP 800-34, Contingency Planning Guide for Information Technology, provides
      guidance for testing contingency plans and documenting the results. Contingency plan
      testing is a critical element of a viable disaster recovery capability.

      A simulated “table top” test of the SBM contingency plan was conducted in June 2010.
      The testing documentation contained an analysis and review of the results. We reviewed
      the testing documentation to determine if the test conformed with NIST 800-34
      guidelines.

VII. Privacy Impact Assessment
      FISMA requires agencies to perform a screening of federal information systems to
      determine if a Privacy Impact Assessment (PIA) is required for that system. OMB
      Memorandum M-03-22 outlines the necessary components of a PIA. The purpose of the
      assessment is to evaluate any vulnerabilities of privacy in information systems and to
      document any privacy issues that have been identified and addressed.

      On November 1, 2012 a PIA was conducted on SBM that was based on the guidelines
      contained in OPM’s PIA Guide. The PIA was reviewed by OPM’s Chief Privacy Officer
      and Chief Information Officer.

VIII. Plan of Action and Milestones Process
      A POA&M is a tool used to assist agencies in identifying, assessing, prioritizing, and
      monitoring the progress of corrective efforts for IT security weaknesses. OPM has
      implemented an agency-wide POA&M process to help track known IT security
      weaknesses associated with the agency’s information systems.

      The SBM POA&M follows OPM’s standard template and has been routinely submitted
      to the OCIO for evaluation. The OIG verified that weaknesses identified as a result of
      the SA&A security control testing and vulnerability scanning have been documented on
      SBM’s system POA&M.


                                                  6
IX. NIST SP 800-53 Evaluation
    NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems and Organizations, provides guidance for implementing a variety of security
    controls for information systems supporting the Federal government. As part of this
    audit, we evaluated 40 of these security controls from the following families:
    •   Access Control;
    •   Audit and Accountability;
    •   Security Assessment and Authorization;
    •   Configuration Management;
    •   Contingency Planning;
    •   Identification and Authentication;
    •   Planning;
    •   Personnel Security;
    •   Risk Assessment; and
    •   System and Information Integrity.

    These controls were evaluated by interviewing individuals with SBM security
    responsibility, reviewing documentation and system screenshots, viewing demonstrations
    of system capabilities, and conducting tests directly on the system.

    Although it appears that the majority of NIST SP 800-53 Revision 3 security controls
    have been successfully implemented for SBM, several tested controls were not fully
    satisfied.

    a) AC-6 Least Privilege
        NIST SP 800-53 Revision 3 requires that “The organization employs the concept of
        least privilege, allowing only authorized users (and processes acting on behalf of
        users) which are necessary to accomplish assigned tasks in accordance with
        organization missions and business functions.”

        SBM does not have a standardized process in place to routinely audit user accounts
        for appropriate access across all applications on the system. Currently, the owners of
        all of the various applications within SBM use their own process to audit user account
        access. The methodology to audit user accounts varies greatly from application to
        application.

        Failure to implement a standardized process to audit user accounts for appropriate
        access increases the likelihood of an unauthorized user having access to protected
        organizational information.

        Recommendation 1
        We recommend the OCIO reevaluate its current methodology and implement a
        standardized process for auditing user account access across all applications for SBM.



                                                 7
   OCIO Response:
   “The Report noted that SBM does not have a standardized process in place to
   routinely audit user accounts for appropriate access across all applications on the
   system. The following actions have been taken to address the weakness.

   •   CIO is currently working on a standardized process to track all account
       requests to SBM application. CIO will also include a process to review current
       SBM account access and take corrective actions as needed. This will be
       performed on a regular basis.
       o Specifically, we are currently collecting account data needs to ensure the
           system owners/administrators are getting the audit results they need and to
           confirm who is or is not authorized account access. This also would resolve
           the separation of duties issue where we collect the raw logs and then provide
           them to the System Owner/Admin for review/validation.
   •   As an interim solution, the DSO/managed administrators will create requests in
       the SBM ACTS application to track requests. All external users have
       agreements which are now being uploaded to the CIO CMS system. The
       assigned Rules of Behavior and the fax copy of the access request are also
       being uploaded.
   •   In the long-term, we will work with the NM Help Desk; modifying the 1665 so
       that the Help Desk can field account requests and collect sufficient information
       to establish new accounts.”

   OIG Reply:
   As part of the audit resolution process, we recommend that the OCIO provide Internal
   Oversight and Compliance (IOC) with evidence supporting the remediation of the
   recommendation.

b) PS-6 Access Agreements
   NIST SP 800-53 Revision 3 states that the organization “ensures that individuals
   requiring access to organizational information and information systems sign
   appropriate access agreements prior to being granted access” and “reviews and
   updates the access agreements.”

   SBM currently does not utilize access agreement forms when granting individuals
   access to the information system. Currently, users who require access to SBM
   applications send an e-mail request to the Designated Security Officer. This current
   process makes it very difficult to find an individual’s access request when necessary
   and to audit user accounts for appropriate access as previously discussed in section
   AC-6, Least Privilege.

   Failure to use, review, and update access agreement forms increases the risk of an
   unauthorized user gaining access to private and proprietary organizational
   information.




                                           8
   Recommendation 2
   We recommend the OCIO implement the use of access agreement forms when
   granting individuals access to SBM, review the forms on a routine basis, and update
   them when necessary.

   OCIO Response:
   “The Report noted that SBM does not utilize access agreement forms when
   granting individuals access to the information system. Users who require access
   send an email request to the DSO. The current process makes it difficult not only
   to find individual access requests, but also audit user accounts to ensure
   appropriate access. The following action has been taken to address the weakness.

   •   OCIO uses the 1665 form for both AD access and access to specific
       applications. The reconciliation between the 1665 authorization for access and
       the log files of actual account access should be occurring at the System level
       where System Owner/Administrators grant authorized access according to their
       program requirements.
       o OCIO will develop a continuous monitoring solution to provide system
           owners with regular reports on account access for their audits of account
           access.
   •   SBM uses Active Directory authentication and all access is tied to LAN/WAN
       accounts. The new process that is currently being designed (described as an
       interim solution in section AC-6 above) will remediate this problem. The long-
       term intent is to incorporate standard data collection form/processes for
       Serena.”

   OIG Reply:
   As part of the audit resolution process, we recommend that the OCIO provide IOC
   with evidence supporting the remediation of the recommendation.

c) RA-5 Vulnerability Scanning
   NIST SP 800-53 Revision 3 states that the organization “scans for vulnerabilities in
   the information system and hosted applications” and “remediates legitimate
   vulnerabilities in accordance with organizational assessment of risk.”

   The SBM information system resides on a server in OPM’s LAN/WAN environment.
   The OCIO’s Network Security Branch (NSB) conducts routine vulnerability scanning
   and reports the results to the system owner. After reviewing the report of SBM’s
   most recent vulnerability scan, we identified several major weaknesses that have not
   been remediated. We contacted NSB and SBM personnel and discovered that this
   was a known vulnerability on several servers in the environment.

   There is currently a project in place to remediate the vulnerabilities and employ
   Defense Information Systems Agency: Security Technical Implementation Guide
   (DISA STIG) compliant configuration settings on all affected servers.



                                           9
       The OIG will follow-up on the status of the implementation project during the FY
       2013 General FISMA Audit, and no recommendation will be issued as part of this
       report.

       OCIO Response:
       “The Report noted that the OIG review of [the] most recent vulnerability scan
       identified several major weaknesses that required remediation, but that there is
       currently a project to remediate the vulnerabilities and employ Defense Information
       Systems Agency: Security Technical Implementation Guide (DISA STIG)
       compliant configuration.

       CIO currently has scheduled vulnerability scanning on the network. This will be
       expanded to all web applications.”

X. Security Breaches Involving Serena
   In May 2012, a malicious hacker successfully breached SBM and obtained sensitive data.
   The system was briefly taken down by the OCIO, but was quickly restored and made
   available on the public Internet.

   As mentioned in section IX above, NSB routinely conducts vulnerability scans on the
   technical infrastructure supporting SBM. The OIG also issued an audit recommendation
   in FY 2012 that the OCIO routinely audit Oracle database configurations for compliance
   with an approved baseline (Report No. 4A-CI-00-12-016 Recommendation 3). However,
   it appears that no action was taken to address the concerns raised by NSB or the OIG, as
   SBM was breached again in March 2013, again leading to the loss of sensitive data.

   These attacks exploited weaknesses that were already known to OCIO personnel, and it is
   our opinion that the system should not have been placed back online in this insecure state.
   Our independent test work indicated that the servers and databases supporting SBM
   continued to operate with critical vulnerabilities as of March 20, 2013. Therefore, we
   issued a flash audit alert to the OPM Director on April 8, 2013 recommending that all
   public-facing elements of SBM be taken down until the system could be adequately
   secured.

   In response to our alert, the Director instructed the OCIO to shut down the public-facing
   portion of the system and develop a corrective action plan to quickly address the SBM
   security flaws (see Appendix III.) We agree with the corrective action plan and will
   continue to monitor this issue.




                                               10
                      Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of
Inspector General, Information Systems Audits Group. The following individuals
participated in the audit and the preparation of this report:

•                  , Group Chief
•                    , Senior Team Leader
•                    IT Auditor




                                          11
                                    Appendix I
                                      April 9, 2013




MEMORANDUM FOR
                        CHIEF INFORMATION SYSTEMS AUDIT GROUP

THROUGH:
                        ACTING CHIEF INFORMATION OFFICER

THROUGH:
                        DEPUTY CHIEF INFORMATION OFFICER FOR
                        OPERATIONS

FROM:
                        DIRECTOR, APPLICATION SYSTEMS

Subject:                Audit of the Information Technology Security Controls of the
                        U.S. Office of Personnel Management’s Serena Business
                        Manager (Report No. 4A-CI-00-13-023)


Thank you for the opportunity to provide comments on the Draft Audit Report for Serena
Business Manager. Our comments are directed specifically towards Results Section IX,
NIST SP 800-53 Revision 3 Evaluation. The Draft Report identifies several tested
security controls that were not fully satisfied during the course of the audit.

AC-6 Least Privilege

The Report noted that SBM does not have a standardized process in place to routinely
audit user accounts for appropriate access across all applications on the system. The
following actions have been taken to address the weakness.

   •   CIO is currently working on a standardized process to track all account requests
       to SBM application. CIO will also include a process to review current SBM
       account access and take corrective actions as needed. This will be performed on a
       regular basis.
           o Specifically, we are currently collecting account data needs to ensure the
               system owners/administrators are getting the audit results they need and to
               confirm who is or is not authorized account access. This also would
               resolve the separation of duties issue where we collect the raw logs and
               then provide them to the System Owner/Admin for review/validation.
   •   As an interim solution, the DSO/managed administrators will create requests in
       the SBM ACTS application to track requests. All external users have agreements
       which are now being uploaded to the CIO CMS system. The assigned Rules of
       Behavior and the fax copy of the access request are also being uploaded.
   •   In the long-term, we will work with the NM Help Desk; modifying the 1665 so
       that the Help Desk can field account requests and collect sufficient information to
       establish new accounts.

PS-6 Access Agreements

The Report noted that SBM does not utilize access agreement forms when granting
individuals access to the information system. Users who require access send an email
request to the DSO. The current process makes it difficult not only to find individual
access requests, but also audit user accounts to ensure appropriate access.. The following
action has been taken to address the weakness.

   •   OCIO uses the 1665 form for both AD access and access to specific applications.
       The reconciliation between the 1665 authorization for access and the log files of
       actual account access should be occurring at the System level where System
       Owner/Administrators grant authorized access according to their program
       requirements.
           o OCIO will develop a continuous monitoring solution to provide system
               owners with regular reports on account access for their audits of account
               access.
   •   SBM uses Active Directory authentication and all access is tied to LAN/WAN
       accounts. The new process that is currently being designed (described as an
       interim solution in section AC-6 above) will remediate this problem. The long-
       term intent is to incorporate standard data collection form/processes for Serena.

RA-5 Vulnerability Scanning

The Report noted that the OIG review of most recent vulnerability scan identified several
major weaknesses that required remediation, but that there is currently a project to
remediate thee vulnerabilities and employ Defense Information Systems Agency:
Security Technical Implementation Guide (DISA STIG) compliant configuration.

CIO currently has scheduled vulnerability scanning on the network. This will be
expanded to all web applications.


If there are additional questions, please contact               at                .
                                                                Appendix II

                                         UNIT ED STATES O FFICE O F PERSO NNEL MANAG EMENT
                                                               W.ll ~h i n g lOn .   IX' 204 1!i

    I) l h.:C' " I tho:'
I n' m l....( ;cncf lll
                                                                   April 8.2013



          M EM ORA NDUM FO R JOHl' BERRY
                             Direct or

          FROM :                                  PAT RICK E. McFARLAND
                                                  Inspector General

          S UBJECT :                             Flash A udit Alert lnformation System Security at the
                                                                      -c




                                                 U.S. Office o f Perso nnel Mana gem ent

          The U.S. Office of Personnel Management (OPM) Office of the Inspector General (DIG) is
          iss uing th is nash au dit a lert to brin g to your immediate atten tion seri ous co ncerns we have
          regard ing informatio n system security at OPM.

          In M ay 20 12. a malic ious hacker succe ssfully breached O PM ' s Serena Bu siness Manager system
          (Serena. formerly known as TeamT rack). The system was briefly taken down by OPM ' s Office
          of the Ch ief Information Officer (OCIO) , but was quickly restored and made available on the
          public Intern et.

          Ov er the pas t year. the a C ID 's Net work Securi ty Branch has conducted vu lne rability scans that
          detected se curity flaws in the Se rena system . However. it appears that no ac tio n was taken by
          the system ad mi nistrators to add ress these iss ues, as an other application o n the Serena platfo rm
          was hacked in March 20 13. After both securi ty breaches. the hackers boasted on the Internet
          about comprom ising a gove rnment computer syste m. leading to embarrass ing publicity fo r O PM .

          As pan of our recen t a udit of Sere na. we conducted independent tes ting o f this system and
          determined that critical sec urity flaws co ntinue to exist on both the servers and the da tabas es
          supporting thi s sy stem. As a sho rt te rm action. we recommend that y ou order att Internet
         l acing           elt ~men lS   of Serena to be taken down until the system can be adequately securell .

          Unfortuna tely, o ur co nce rns are not lim ited to the Serena system, an d we belie ve this issue is
          indicative of a sy stem ic problem at OPM . It is o ur understanding tha t Serena an d many o ther
          O PM systems o pe rate in a " deve lopment" en vironment an d therefore have never been subject to
          the tho rough security and functio nality testin g tha t a production system should receive.




           . . . . . DI... . ." .
                                        Ap pendix II



Honorable John Berry                                                                            2

We will continue to perform audit work related to these concerns. with a focus on the security of
Internet facing systems hosted in the "development" environment. We will provide you with
additional details in two forthcoming final aud it reports:
•	 Audit of the Information Technology Security Controls of Serena Business Manager (to be
   issued in April 2013 )



                                               a_
•	 Fede ral Information Sec urity Mana gement Act Audit - FY 20 13 (to be issued in November
   20 13)

If you have any questions you can contact me.              or a member of your staff may
contact Michael Esser. Assistant Inspector General for Audits. a_       .
                                           Appendix III

                    UN ITED STATE S OFFICE        or rER S O N ~ [ L M r\ NAGEM ENT
                                           Wa' hJnglun . [X ' :!IN I'
                                               AI'fI 10 IOU


MEMORANDUM FOR :                PATR IC K E. MCFA RLAND
                                Inspector General

mOM :
                                JOHN   IlERRzt
                                Director
                                          ·

SU BJ ECT :                     Response to          F     h Audit Alen   April R. 201 ]


Th ank yo u for bringing th is matter 10 my immediate attention. In response. Chuck Simpson.
                                l1Il~ from the' Office u f the Chief Information O ffice r
(OC IO ) met with Michael Esser                                   from your staff. on April 9,
20 13. to clarify the information system security issues. They mutual ly agreed on the following
actions :

     I )	 The external-facing access point to the Internet was disabled for all the: Serena Business
          Manager (S OM) applications as of 5:00 pm Apri l 9;

     2)	 The applications on S BM would remai n available to internal O PM users;

     3}	 OCIO and 10 staffs will work ccllabcratively to review and remcd iate SBM platforms
         and applications. based on a phased approach. in orde r to reopen the access 10 external
         users as qu ickly as po ssible; and

     4)	 UCIO a nd 10 sta ffs will work together to identify any other sites internal to a PM and
          remcdiate.

 We will contin ue to monitor th e work on this issue . If you ha ve any questions please call Chuck
S impson. Act ing Chief Inform atio n Officer. at               . or emai l hi m at
(t    I     I'   • I l'   I'




---
